C w 47Keith Smeaton
18 Ravenscourt
Benthal Road
London N16 7755
UK
M: 07999558103
E: hello@keithsmeaton.com
July 27th, 2021
Clerk's Office
FAO: Mr M Duggan
United States Supreme Court
Washington DC
LA.5 pc,
Dear Mr Duggan,
RE: Docket 20-7728 Certiorari Appeal Keith Smeaton V USA
kind assistance, please find
Further to your recent letters and our phone conversation and
ities and Questions.
enclosed my amended Statement of the Case, table of author
Dyslexia. Therefore, because I
As previously stated I regretfully suffer the learning disability
in difficulty understanding the
am a pro-se layman at law without profession assistance I am
ts are on file with your
court's rule save for my best efforts. I note we agreed the exhibi
attached said exhibits
office. Therefor to save international mail expense I have not
herewith being pension claimant.
PtAR-rog
LAJ-k-oen
circumstances of substantial or
I certify, I certify that the grounds are limited to interviewing
surprising which I have
controlling effect because a very close family friend recently died
ia I need to clarify legal
had to deal with. Secondly because of my learning dyability Dyslex
ds of Government
grounds previous filed not adequately explained regarding groun
defined. I file this in good
obstruction of justice raised in prior pleading but not adequately
faith not just to delay matters.
I hope the court accepts the attached.
Yours sincerely

Keith Smeaton
Appellant, Defendant.

perjury, have placed a
Certificate of service. I, the undersigned, knowing the penalty for
ssed to Ei4 e
copy of the above documents said document in the Royal Mail addre
e 950 Pennsylvania
Prelogqr, Acting Solicitor General, U.S. Department of Justic
me Co id, **reel 2021
Supre
U.S
the
Avenue, NW Washington, DC 20530-0001 and to the Clerk of
OFFICE OF THE CLERK
Washington DC, 20543-0001 on July 28th 2021.
U.S.
t\
V5A•

SUPREME COURT

TABLE OF AUTHORTITES CITED Cases:

Washington V, Strickland 466 U.S. 668 (1984)
Black's Law dictionary, promissory estoppel

United States V. Frankhauser, 80 F.3d 641, 653 (ist Cir 1996)
United States V.Mullins, 22 F.3d 1365 (6ths Cir. 1994)
United States V. Jones, 663 F.2d 567, 569 (511 Cir.1981)
7the omnibus clause of 18 U.S.0 Sec 1505.
United States V. Capsopia 260 F.2d 566 (rd Cir. 1958).
Title 28 USC Sec 2255
Stephenson V. Herrera 464 F.3d, 897 (911' Cir. 2006)
Slack v McDaniel 529 U.S. 473 2000
Johnson v The United States 576 U.S. 591 (2015)
Max Plank Institute for Comparative Public Law and International Law under the direction of
professor Anne Peters (2021-) and Professor Rudiger Wolfram (2004-2020)
Murphy V. Smith, 138 S.CT 784 (2018) & The litigation Reform Act 42 USC Sec 1201
Habeus Corpus Sec. 2255 no. 1551 in the criminal case of WWS-83-CR-0213,
United States v. Dinome, 954 F.2d 616, 626 (5h Cir. 1996)
People ex rel. Union Bag & Paper Corp. v. Ex Rel. Union Bag & Pepper Corp V. Gilbert 442,
444/ SUP CT 10032

Obergefell V. Hodges 2nd Cir. 2015
Gideon V. Wainright, 372 US 335 (1965)
U.S V Hikson 585 F.3d 1247 (9th Circuit)
Anderson V City of Bessemer, NC 470 US 564, 577
Commonwealth V. White 910 A.2d 626 (PA. 2006

Corrpt Cle. ,2occi) aiqb-r_t_i,c
FJ=3A t
LIS tz HILkso-o-r
uts.Yqs ti cia5)
U iLiFa2., tiotA
riN1126 tJ.
LA Nuft_13

Public Law 88-352 (78 Stat. 241)
The Civil Rights Act 1964
District Attorneys Ofice V. Osborne, 557 U.S 52 (2009),
Schiup V Delo, 513 U.S 298 (1995). U.S (1995)
U.S V.Olano, 507 U.S. 725, 736 (1993)
Henderson V. U.S, 568 U.S(2013)
Davis V. US, 417 U.S 333, 346 47 (1974)
Jelinek V, Cases, 328 S, W, 3d 526 (tex. 2010.

L,L:3-0

✓

AL)5

LH,

op osoA v, 0-5 (015)

35 1-, 351-3Si

LP

STATUTE AND RULES:
The U.S Constitution's 1st, St', 6ths and 14th Amendments. ,
U.S Constitution 1st, Stb 6ths and

10 Amendments,-

The U.S Bill of Rights
Article 39/40 of Magna Carta Constitutionally guaranteeing a fare trail.
The ADA At 1990
Void ab Initio
Nunc Pro Tunc
The U.S Civil Rights Act 1965 / 1866
The Habeas Corpus Act 1679
Title 28 USC Sec 2255 and i453 inclusive.
Title 18 USC Sec 1510 and 1Sec 503

CONSTITUTIONAL AND STAUTUATORY PROVISIONS INVOLVED:
Abuse of power and authority and malfeasance in officeFales Imprisonment
Denial of Common Law Rights
Conspiracy to selectively and maliciously prosecute Appellant
Prosecutorial abuse Assistant US Prosecutor's and Postal Inspectors Negligence
FPDs infective assistance of Council - professional negligence
Judicial Abuse
Judicial abuse overriding Congress's statutes.
Contravention of the 1948 Universal Declaration of Human Rights Baring Torture through false
imprisonment.
Abuse of Due process failing to protect citizens
Denial of access to the Federal Courts.
Court officer's Obstruction and perversion of Justice.
/(t

1.-‘52 k

LtTSuk E

63 1511 (C)(2.)
i
14)
yg-zq (7,1- 5"

tA,S C See,

u-v),.kJ

Statement of the case
th
Docket 20-7728 — Certiorari Appeal from 9 Circuit Order No. 2015364 D.0 Nos 3:17-cv06828-SI. 3:83-cr-00213-SI-1. Denial of Pro-se petition for Writ of Habeas Corpus Sec 2255
No. 1551

2
3
4
5
6

1— Appellant seeks certiorari appeal from the 9th Circuit Court of Appeal's January 2021

7

order dismissing appeal from the order of District Court Judge HHDJ Illuson denial of my

8

Petition For writ of Habbas Corpus ( P of HC) No. 1551 and ask this court to set aside the

9

1983 conviction for mail fraud in Case 0213 and Case 0693 Bail Jumping on grounds the said

10

conviction resulted from the prosecutor's and Postal Inspectors Obstruction of Justice which

al

the new post-conviction evidence supports proving lack of intent which the lower courts

12

refuse to consider to date denying my Constitutional Right of due process creating injustice

13

through a miscarriage of justice which the Government has never denied or opposed to

14

date causing unwarranted punishment to continue to date unfairly caused through

15

ineffective assistance of FPD's council in contravention of e.g. he 1st, 5th, 6ths and 14th

16

Amendments. Please note: Appellant Keith Smeaton seeks this court's indulgence because I

17

am is a dyslectic pro-se layman at law resulting in my not understanding intricate Supreme

18

Court rules governing certiorari appeal save for best efforts. Dyslexia is currently caught by

19

the ADA Act 190. I apologies for possible repetition and poor grammar.

20
21

2 - Background: On September 14th, 2017 HHJ Peter Shaw, 9th Circuit Court of Appeal

22

Commissioner, pursuant to Stephens V. Herrera, 464 F.3d 895, 897 (9th Circuit 2006),

23

ordered Appellant's original 1985 Sec 2255 Petition For Writ of Habeas Corpus (P of HC) No.

24

WWS-85-CV-1551 in Case WWS-83-cr-0213 (Mail Fraud), transferred it to lower District

25

Court for hearing and close the original action. It came before HHDJ Illuson. In 2018.

26

However, HHDJ Illison erred when not closing the original action as ordered by HHJ Peter

2,

Shaw because she allowed 2018 prosecutor Sailaja M. Paidipaty to argue original action. He

28

filled opposition to PHC raising erroneous grounds that DJ lacked jurisdiction to hear PO HC

29

because:

30

(i)

I had been released form prison years ago,

31

(ii)

The 1985 DJ had dismissed it.

32

(iii)

I am not allowed to file successive P of HC without 9th Circuit permission.

33

S A. Paidipaty 's arguments are contrived and misleading when concealing / obstructing the

34

true case facts that:

35

(i)

HHJ Peter Shaw in 2017 permitted me to file the 1985 P OF HC No. 1551. He

36

permited this because the 1985 DJ had denied / blocked my P of HC's due process

37

passage through the courts which:

38

(a) denied my U.S Constitutional Rights andthe intent-of Habeas Corpus which is

39

accepted internationally and which;

40

(b) contravened Title 28 USC Sec 2255 rules governing P of HC because the 1985 DJ

41

erred when failing to act upon it within 28 days of receipt of it. Said DJ further

42

errored when he acted upon it three months later dismissing it as meritless on the

43

papers without oral argument by his personal letter. I could not appeal from DJ's

44

personal letter because it is not a court order. A jurist would find this denied my

45

Constitutional Rights. Said DJ refused to consider the issues and post-conviction

46

evidence raised in my P Of HC arguing:

47

(c) the 1983 Prosecutor's and Postal inspector' obstruction of justice when they

48

concealed defence evidence from the Grand Jury and Court proving my innocents,

49

on grounds of;

5t,

(d) My willingly provided hand writing sample proving I did not make two false

51

statements to mortgage bank and;

52

(e) My clients statements proving I did not intentionally mislead when informing

53

them there was a trust account at the B of A and Lloyds Bank for clients purchase

54

money because;

55

(f) I and my clients and relied upon the said banks independently Informing said

56

clients that the Trust Account did Exist contrary to the 1983 Prosecutor's and Postal

57

Inspector's claim there was no trust account which FPD failed to expose and;

58

(g) said Prosecutor and Postal Inspector concealed my clients paid the banks not

59

me or my company and the banks knew what the money was for.

60

The 2018 prosecutor S M. Paidipaty's continued this concealment of said defence

61

evidence rendering his opposition to P of HC void-and an abuse of

62

untruthful. The intent was to mislead the current DJ Illuson as to fact which he

63

should not have done further obstructing justice in the process. HHJD Illuson having

64

noted the evidence in my P of HC supporting said government's obstruction of

65

justice errored when accepting said 2018 prosecutor's opposition to P of HC without

66

comment which prejudiced me. A reasonable Jurist would find this denied

67

Constitutional Rights..

68

2— HHDJ ILLuson, and the 1985 DJ, noting my P of HC unchallenged un-opposed

69

evidence confirming It was the ineffective assistance of 1983 FPD's office that

70

resulted in the false conviction and sentence when FPD wrongly refused to

71

investigate and expose the Government's obstruction of justice and his failure to

72

motion the court to dismiss indictment in a timely manner before sentencing. The

73

1983 FPD's further ineffective assistance is when he failed to investigate and object

process as

74

to the totally false and contrived PSI report designed and resulting in the court

75

angrily and maliciously imposing unreasonable sentence based upon false psi facts

76

and purged testimony which misstated :

77

(a) I had not provided my financial state which I had at prior arraignment.

78

(b) That I supposedly lied to my colleges and friends when requesting

79

character references for concurrent immigration status which PSI

80

erroneously claimed as untrue. The FPD failed to investigate my concurrent

81

USINS application for immigration status for which said references

82

supported. FPB advised me to file said references with the Probation office

83

but refused to inform the Court of the USINS proceeding. The Prosecutor

84

knew of the US Immigration proceedings but concealed it from the court

85

with the intent of prejudicing-the DJ against me-allowing Di- to wrongly

86

believe I was liar. FPD failed to object or motion the court with the truth.

87

( C ) HHDJ Illuson refused to consider the evidence raised in my P of HC that

88

the 1983 FPD failed to investigate the Prosecutor's and Postal Inspector's

89

additional obstruction of justice when they maliciously decived the Court

90

that I had a history of theft since being in California which is untrue. ILLuson

91

J failed to consider or discuss that Prosecutor S M. Paidipaty , like the 1983

92

Prosecutor and Postal Inspector, had concealed the defence evidence:

93

(i)

that I had a secured a Civil Judgment against Mr R L Abbott, ex

94

partner, at the Contra Costa County Court proving his embezzlement

95

of money from my company RSJ USA Corp and his stealing my ID

96

facilitating his stealing money from my good credit rating leaving me

97

with the debt which Illuson DJ noted FPD refused to investigate or

98

present to the court in a timely manner.

99

(ii)

(ii) that the Government's concealment of the evidence proving

100

Rudy Mayer, Relator, had falsified my Mortgage application which my -

101

had writing samples proved. Illuson DJ failed to consider This caused

102

my infant daughters and family to become homes and the same to

103

my English family. The FPB negligent when not investigating the

104

forgoing and for not motioning the court as to the truth and the

.105

106
107

Government's deception and manipulation of the Court's process in
this regard.
Illuson J failed to consider the P OF HC evidence confirming FPD failed to

108

investigate my dyslexia facilitated-MrAbbott's crimes and this combined

109

with the 1983 prosecutor's and Postal Inspector's selective and malicious

110

scheme to convict me through their obstruction of justice caused my

111

suffering debilitating Adjustment Reaction rendering me "unable to do

,„112

anything simple" and open to the suggestion to plead guilty as confirmed by

113

expert un-challenged and unopposed witness Doctor Sycorski testimony at

114

the subsequent bail jumping trial WWS-83-cr-0693 which also introduced

115

evidence that during the entire fraud proceeding I was under psychotherapy

116

at the Mount Diablo Rehabilitation Centre supporting the evdnce that I, at

117

the time, was unable to make rational decision e.g. to plead guilty. The

118

Court record proves my confusion in this regard as raised in my P of HC.

119
120

Illuson DJ further erred when noting the Fpd's further negligent when
Not motioning the court to stay proceedings because of my deplorable

121

mental condition and for the court to order expert witness on learning

122

disability dyslexia to guide the court on the detrimental effects Dyslexia will

123

have upon the proceedings' in a timely manner. Ref P of HC filed and

124

served in this Court. Dyslexia is defined as " One who cannot understand

125

the meaning of that which is written and I am very slow at processing

126

information forcing me to trust others interpretation of written mater. See

127

Medical diagnosis of Doctor Beverly Hornsby, UK and Mr Guy Grey,

128

member of Royal Academy's working team on dyslexia diagnosis filed and

- 129

served exhibited with P of HC.

130
131

I filed objection to 2018 prosecutor's opposition to P of HC copied to said

132

prosecutor's office.

133
134

HHDJ Illuson then erred when dismissing my P of HC on grounds I did not file

135

objections to Prosecutor's opposition which the record confirms I did in a timely

_136

manner. Illison al refused to consider the the arguments, supporting evidence and

137

supporting law raised in my P of HC. This again is judicial error and an abuse of

138

discretion contravening the Cannons Law regarding Judges duties, ethics and

139

morels. A jurist would find this a denial of Constitutional Rights. ILLuson DJ informed

140

me I must apply for a certificate of Appealability with the 9th Circuit which I did.

141
142

ON April 17, 2020, the 9th circuit denied said certificate on grounds that " a jurist of

143

reason would find it debatable whether the Sec 2255 motion states a valid claim of

144

denial of a Constitutional Right and that jurist ... would find it debatable whether

145

district court was correct in its procedural ruling, to dismiss P of HC quoting Slack V.

146

McDaniel and Gonzalez. These case do not apply because their circumstances are

147

different to mine and thay concern a state prisoner. A reasonable jurist would not

148

only find said 9th Circuit order an abuse of discretion and due process contravening

149

The Cannons of Law requiring Judges ethics and morel which said judges appear to

150

have abused supporting denial of U.S Constitutional Rights and International right

151

pursuant to the 1948 Universal Declaration of Human Rights baring torture through

152

false imprisonment signed into US Federal Law requiring the U.S Federal Justice

t153

System to treat me, an English Citizen, equally to U.S citizens. I and my family are

154

victims of said false imprisonment and continue to suffer said un-warranted and un-

155

Constitutional punishment which continues to date as argued herein which also

156

contravened the intent- of Habeas Corpus as stated in-my- P of HC and as-reasonable-

157

Jurist would agree..

158
159
_ 160
161

The 9th Circuit sent their denial order of April 2020 to the wrong UK address. After
informing the 9th Circuit Clerk's office of this error, I received said order several
months later in early January 2021..

162
163

I applied for reconsideration en banc. On January 15th 2021, the 9th circuit

164

dismissed it on grounds of 9th Circuit Rules. R 27-10; 9th Cir. Gen The motion for

165

reconsideration is denied. There was no judicially rendered opinion concerning the

166

issues of prior abuse of due process or the issues stated in my P of HC or the post-

167

conviction evidence supporting innocents or the 1985 and 2018 prosecutor's

16b

meritless opposition P of HC or said obstruction of justice negating convictions in

169

fact they arguably intentionally avoid it creating injustice.

170
171

I appealed to the Supreme Court..

172
173

Judge's rulings clearly erroneous:

174

(i)

Abuse od discretion, De Novo, the requirement that findings be clearly

175

erroneous to be set-aside is a standard of review used especially by an

176

appellant court when reviewing a trial (as opposed to a jury's) findings of

177

fact for error.

178

(ii)

Judges abuse of discretion:

179-

(iii)

An error of Judgment by a trial court in making a ruling that is clearly

180

unreasonable, erroneous. Or arbitrary by the facts or law applicable in the

181

case. 1st Step:... Determine...De Novo whether.. trial court identified the

182

correct legal rule to apply, ID at 1262. De Novo if (Id. At 1262.

183

2' Step: Determine.. trial court's application of correct legal standard... was

184

(1) illogical, (2) implausible or (3) without support I reference that may be

185

drawn from facts on records. See: US V Hinkson, 585 F.3d 1247 (9th Cir. 2009)

186

It is clear the lower judges have abused their discretion as case law support

187

listed in list of authorities herewith.

188
189

The Prosecutors and Postal Inspector or any of the lower Court 'judges to

190

date have NOT considered the legal fact that said conviction and sentence

191

must be set-aside on grounds they resulted from obstruction and perversion

of justice. Ref: my P of HC No. 1551 which adequately described said this
193

obstruction of justice which said judges recognised but refused to consider

194

denying my Constitutional and International rights contravening the U.S Bill

195

of Rights..

196
197

Argument:

198

Actual Innocents is a special standard of review in legal cases to prove that a -

199

charged defendant did not commit the crime that he or she is accused of,

200

which is often applied by the appellant courts to prevent a miscarriage of

201

justice. The actual innocents standard may be invoked at any time and not

202

only in criminal proceedings but in immigration and other civil proceedings.

203

This-is pursuant to Public Law 88-352 (78 Stat. 241) The Civil-Rights Act of

204

1964 prohibits discrimination and the ADAACT 1009. See: District Attorney's

205

Office V. Osborne, 557 U.S 52 (2009), Schlup V. Delo, 513 U.S 298 (1995). US

206

V. Olano, 507 U.S. 725, 736 (1993) — Collateral review ...Miscarriage of
justice. Henderson V . US, 568 U.S 266 (2013) Davis v. US, 417 U.S 333, 346-

208

47 (1974) _ There can be no room for doubt that such a circumstance

209

inherently results in a complete miscarriage of Justice and present

210

exemptional circumstances that justify collateral relief. The test for abuse

211

of discretion requires us to determine whether the trial court acted in an

212

arbitrary or unreasonable manner without reference to any guiding rules or

213

principle See: Jelinek V. Cases, 328 S,W,3d 526 (Tex. 2010. See: Kolender V.

214

Lawson, 461 U.S. 352,357-358 4 Johnson V Unitd States Opinion of the

215

Court(1983). The prohibition of vagueness in criminal statutes "is a well-

216

recognised requirement, consonant alsik with ordinary notions of fair play

217

and the settled rule of law." And a statute that flouts it :violates the first-

218

essential of due process". See: IN Aguilar, the Court decided that he then

219

general obstruction-of-justice statute, 18 U.S.0 Sec 1503, included a "nexus

220

requirement/ 10 10 id at 599-600. Aguilar's nexus requirement limits the

221

scope of action for which s defendant can be criminally liable by requiring an

222

"intent" to influence judicial or grand jury proceedings"; that is , the
(Objective) act must have relationship in time, causation or lodgic with the

224

judicial proceedings" allegedly obstructed. 11111d. ata 599.. Aguilar

225

requires only that obstruction of an official proceeding is reasonably

226

foreseeable. 13 13 Unites States v. Paugh, 945 F.3d 9, 21-22 (2" Cir. 2019,

227

United States V. Phillips. 583 F.3d1261, 1264 (10th Cir. 2009. ...that ones

228

actions are likely tp affect" an official proceeding remains an essential

229

element of Sec 1512 ( c )(2) obstruction of Justice 14 14 Argiilar 515 U.S 599;

230

United States V. Sutherland, 92221 F.3d 421, 427-28 (4th Cir, 2019„ Cert

r.

denied, 140 S,CT 1106 (2020) See: Marinello v. United States 16 16 138 S.
232

CT 1101.

233
234

CONCLUTION: he forgoing confirms that the 1983 prosecutor and Postal

235

inspector Nexus — Mens Rea or Actus Reus Element has not been denied or

236

opposed to date as I argue above and in my P of HC No. 1551. To date all

237

lower Court refuse to consider these issues prosecutorial misconduct

238

criminal issue and its supporting evidence. The 2018 prosecutor S M

239

PadyPati arguably joined the 1983 prosecutor's scheme when filling

240

meritless opposition to P of HC and HHDJ Illuson and the 9th Circuit Judges

241

including 1985/6 HHJ Choy and the 2020 and 20219th Circuit Judges to

242

wrongly supress my P of HC, Therefore, any reasonable jurist would agree

243

this denies me my Constitutional and International and common law rights

244

arguably in contravention of Tile 18 USC Sec 1503, 1512( c )(2) beyond a

245

reasonable doubt and arguably proves ineffective assistance of council who

246

failed to investigate said obstruction and move the court to dismiss
indictment. Prior to sentencing. Notably, said judges realising convictions

248

and prison sentence resulted from said obstruction of justice did not

249

automatically vacate the sentence and did not release me for prison in

250

contravention of not only the U.S Constitution and Bill of Right but as The

251

said 1948 Universal Declaration of Human Rights Baring torture through

252

false imprisonment and said judges have permitted said punishment to

253

continue to and hereafter save for HHJ Peter Shaw. Freedom and Justice for

254

all?
Therefore, for reasons stated above and in the cause and interests of natural justice both

256

internationally and domestic I ask this court to grant my certiorari appeal for good cause

257

shown and correct the injustice done to me internationally and set-aside the convictions

258

in case 0213 and 0693.

259
260
261
262
263
264
265

Respectfully

Keith Smeaton
Appellant / Defendant

Dated July 28, 2021.

QUESTIONS PREESENTED 1 to 14:
Did HHJD Illuson Error when:
1- Dismissing P of HC on grounds Prosecutor S M Paidipaty's
objections to P OF HC are erroneous on grounds they conceal the truth facts of the case?

2 -1-11-1D1 Illison was aware of the appellants un-challenged post-conviction evidence,
augments and supporting law exhibited in P of HC confirming the 1983 U.S Assistant
prosecutor and Postal Inspector concealment of defence evidence from the,Grand Jury (GJ)_
and subsequently the Federal Court HHDJ Schwarzer presiding who refused to consider
them?

3 — Not considering the conviction against Appellant must be set-aside on grounds they
resulted from the 1983 prosecutor's and postal inspector's obstruction and perversion of
Justice argued in P of HC No. 1551? Which the Government has never denied or posed to
date.

4 — When DJ denied pro-se P of HC on the papers refusing oral argument knowing pro-se
appellant was unrepresented?

5— Was the 2018 Assistant prosecutor in error when concealing / omitted the evidence that
the convictions against appellant were a result of Government obstruction of justice which
he continued to conceal form the courts.

6 — Were the 2020 and 20219th Circuit Judges in error when dismissing appellant's appeals
on erroneous grounds when they refused to consider the issues of P of HC evidence proving
convictions resulted from governments obstruction of justice and the lower DJ's error of her
refusing to consider the issues of the P of HC and allowing prosecutor's wrongly accepted
prosecutor's opposition to P of HC?

7 — Was appellant's Constitutional Rights under e.g. the 1st, 5t,h 6ths and 14th Amendments
and would a jurist of reason agree his Constitutional rights have been denied?8 -Are the

designs of eth U.S Federal Courts have international jurisdiction when federal conviction are
accepted in foreign nations such as UK appellant who is an English Citizen.

8 — Has appellant been subject to false imprisonment when the court refused to comply
with the intent of Habeas Corpus when judges refuse to comply with Title 28 USC Sec 2255.

9 - Has appellants rights under the 1948 Universal Declaration of Human Right baring
torture through false imprisonment of which the U.S is a signatory?

10 — As a signatory to said treaty should Appellant, foreign national who initially legally
entered he USA be treated equally to U.S Citizens such as Appellant's infant U.S Citizen
Daughters? Who as a result of said bogus conviction lost their farther for eleven years to
their prejudice, discrimination and detriment.

11— Did the said obstruction of justice cause appellants mental suffering through
adjustment reaction.

12 — Was the appellant denied his constitution rights through infective assistance of
counsel.

13 — Did the Ws error when not staying the proceedings to obtain expert witness to guide
and inform all courts on the detrimental effects appellant's learning disability will have on
thee proceedings?

14— Is appellant's claim against Prosecutors and Postal Inspectors of obstruction of justice
valid under Title 18 USC Sec 1503, 1502( c )(2) and or 26 U.S.0 Sec 7212 on grounds the USC
has found no man is above the law.

